BECKER GALLAGHER
Briefs

and

I

Records

DONNA ). WOLF, J.D.
JULIE

A.

CERTIFICATE OF COMPLIANCE
No.
JORN SCHICKEL and DAVID WATSON,

Petitioners,
V.

GEORGE C. TROUTMAN, PAT FREIBART, TONY GOETZ,
ELMER GEORGE, KEN WINTERS, TOM JENSEN,
SHELDON BAUGH, PHIL HUDDLESTON, and ANTHONY
M. WILHOIT, in their official capacities as members
of Kentucky Legislative Ethics Commission; H. JOHN
SCHAFF, in his official capacity as Executive Director
of the Kentucky Legislative Ethics Commission,

Respondents.
As required by Supreme Court Rule 33.l(h), I
certify that the Petition for Writ of Certiorari contains
8,944 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 3, 2019.

Julie
ershner
Becke1 allagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
1 Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

KERSHNER, J.D.

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

